OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTH
AFRICA’S PROGRESS IN
IMPLEMENTING THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 4-674-06-013-P
August 11, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


August 11, 2006

MEMORANDUM

TO:                  USAID/South Africa Mission Director, Carleene Dei

FROM:                Regional Inspector General, Nathan Lokos /s/

SUBJECT:     Audit of USAID/South Africa’s Progress in Implementing the President’s
Emergency Plan for AIDS Relief (Report No. 4-674-06-013-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

The report includes three recommendations to strengthen USAID/South Africa’s
implementation of the President’s Emergency Plan for AIDS Relief. In response to the
draft report, the Mission agreed with all three recommendations, and has issued revised
policies and procedures for final action on Recommendation Nos. 1 and 2. For
Recommendation No. 3, a management decision has been reached. Please provide the
Office of Audit, Performance, and Compliance Division with the necessary documentation
to achieve final action on Recommendation No. 3.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Need for Validating Reported Data ............................................................................. 6

     Mission Officials Need to Better
     Document Site Visits ................................................................................................... 8

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14

Appendix III – Reported Outputs Achieved as of September 30, 2005 .................... 18
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit as part of a series of
worldwide audits conducted by the Office of Inspector General. The objective of this
audit was to determine whether USAID/South Africa’s Emergency Plan prevention and
care activities were progressing as expected towards the planned outputs in its grants,
cooperative agreements, and contracts. (See page 3.)

We were unable to determine whether USAID/South Africa’s prevention and care
activities were progressing as expected towards meeting planned outputs contained in
grants, cooperative agreements, and contracts because we could not verify the outputs
reportedly achieved. However, according to Mission officials they believe that reported
planned outputs have been met based upon their knowledge of the recipients and their
activities, and their ongoing monitoring and evaluation activities. This audit found that
some of the reported data could not be validated and data testing identified some
problems. Data quality problems were also found in recent data quality assessments
conducted by a contractor. (See page 4.) USAID/South Africa needs to take steps to
improve the quality of data from its recipients and sub-recipients. These improvements
can be made by (1) having recipients periodically validate their own and their sub-
recipients’ data, and (2) developing a monitoring and evaluation training plan that meets
the range of monitoring and evaluation needs of recipients. (See pages 6-8.) In
addition, USAID/South Africa needs to better document its monitoring activities. (See
pages 8-10.)

This report includes three recommendations for strengthening USAID/South Africa’s
implementation of the President’s Emergency Plan for AIDS Relief. The Mission has
agreed with all three recommendations in its written response to the draft report. Final
action has been taken for Recommendation Nos. 1 and 2, and a management decision
has been reached for Recommendation No. 3. (See pages 7 and 10.)

Management’s comments are included in their entirety in Appendix II.




                                                                                       1
BACKGROUND
Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, five-year program
provides $9 billion in new funding to speed up prevention, care and treatment services in
15 focus countries.1 The Emergency Plan also devotes $5 billion over five years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the
Global Fund by $1 billion over five years.2 The fiscal year (FY) 2005 budget for the
Emergency Plan focus countries totaled $1.03 billion. The Emergency Plan is directed
by the Department of State’s Global AIDS Coordinator (AIDS Coordinator) and
implemented collaboratively by country teams composed of staff from USAID, the
Department of State, the Department of Health and Human Services, and other Federal
agencies.

South Africa is one of the 15 focus countries. According to USAID/South Africa, the U.S.
Government Mission in South Africa was allocated $123.9 million during FY 2005, of
which $74.2 million was managed by USAID. The Bureau for Global Health has general
responsibility for USAID’s participation in the Emergency Plan. More specifically, the
Director of Global Health’s Office of HIV/AIDS provides the technical leadership for
USAID’s HIV/AIDS programs.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic.         The worldwide goal over five years is to provide
treatment to 2 million HIV-infected people, prevent 7 million HIV infections, and provide
care to 10 million people infected and affected by HIV/AIDS, including patients and
orphans. The AIDS Coordinator – which directs the U.S. Government’s fight against
HIV/AIDS internationally – divided these Emergency Plan targets among the 15 focus
countries and allowed each country to determine its own methodology for achieving its
portion of the assigned targets by the end of five years.

In South Africa’s first decade of democracy, adult HIV prevalence has risen from less
than 3 percent to an estimated 21.5 percent. South Africa has 5.6 million adults and
children infected with HIV. The HIV epidemic is generalized (found in all sectors of the
population) and maturing. It is characterized in part by (1) high levels of prevalence and
asymptomatic HIV infections; (2) an infection rate that is beginning to plateau but is still
high; (3) high infection rates among sexually active people, other vulnerable and high
risk populations (mobile populations, sex workers and their clients, and uniformed
services) and newborns; and (4) vulnerability of women and girls. AIDS-associated
mortality is high (370,000 AIDS deaths in 2003) with large increases in HIV mortality
among young adults and children (40 percent of under-five mortality is associated with
HIV in 2000). As mortality increases, so too will AIDS orphans who number 1.1 million.
The U.S. Government Mission in South Africa was committed to achieving the following
targets by September 30, 2005:



1
  Twelve countries in Africa (Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria,
Rwanda, South Africa, Tanzania, Uganda and Zambia), and three other countries (Guyana, Haiti and
Vietnam).
2
  The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis and malaria.


                                                                                                          2
                          U.S Government Emergency Plan
                      Fiscal Year 2005 Targets for South Africa
               Prevention                                    Care                      Treatment
Pregnant Women       Pregnant Women                          Individuals               Individuals
Receiving            Receiving PMTCT3                        Receiving Care            Receiving
Antiretroviral       Services                                and Support               Antiretroviral
Prophylaxis                                                                            Therapy4

           125,000                      500,000                    967,000                     107,000


AUDIT OBJECTIVE
As part of the Office of Inspector General’s fiscal year 2006 annual audit plan, this audit
was conducted as part of a worldwide series of audits of USAID’s progress in
implementing the President’s Emergency Plan for AIDS Relief. The audit was
conducted to answer the following question:

       •   Are USAID/South Africa’s Emergency Plan prevention and care activities
           progressing as expected towards the planned outputs in its grants, cooperative
           agreements, and contracts?

Appendix I contains a discussion of the audit’s scope and methodology.




3
    PMTCT means prevention of mother-to-child HIV transmission.
4
    This audit focused only on prevention and care, not treatment, under which antiretroviral therapy falls.


                                                                                                               3
AUDIT FINDINGS
We were unable to determine whether USAID/South Africa’s prevention and care
activities were progressing as expected towards meeting planned outputs contained in
grants, cooperative agreements, and contracts because we could not verify the outputs
reportedly achieved. However, according to Mission officials, they believe that reported
planned outputs have been met based upon their knowledge of the recipients and their
activities, and their ongoing monitoring and evaluation activities. Nevertheless, this audit
found that some of the reported data could not be validated and data testing identified
some problems.5        Moreover, data quality problems were also found in recent data
quality assessments conducted by a contractor.

For the five recipients reviewed, representing 28 percent of USAID/South Africa’s total
prevention and care funding for FY 2005,6 the Mission reported that 10 of 11 key outputs
(91 percent) selected for review were being met. Appendix III discusses progress
toward outputs by recipient. USAID/South Africa’s recipients are provided with
monitoring and evaluation training as technical assistance to assist in implementing their
Emergency Plan activities. In addition, the Mission’s own staff monitored the Emergency
Plan recipients. This monitoring comes in many different forms such as site visits, face-
to-face meetings, email, telephone communications, and reviewing status reports. In
addition, the Mission was supportive of having its recipients participate in data quality
assessments in order to help improve recipient data—many recipients had already
participated. Further, the Mission had also hired a monitoring and evaluation advisor to
follow up on the issues raised in the data quality assessments and to provide technical
assistance to the Mission’s recipients. According to a Mission official the quality of data
has been improving.

USAID/South Africa needs to require that its recipients periodically validate their own
and their sub-recipients’ data that is being reported to USAID/South Africa. In addition,
the Mission needs to develop a monitoring and evaluation training plan that meets the
range of monitoring and evaluation needs of its recipients. Further, USAID/South Africa
needs to better document its monitoring activities. Subsequent sections of this report
will more fully address these areas.




5
 The recipients reported data that was submitted for review has not been fully audited.
6
 A major recipient was excluded from this sample because they had been the subject of another major
RIG/Pretoria audit this past year.


                                                                                                 4
Photo of a recipient’s staff member standing next to USAID-funded van which is used for voluntary
counseling and testing activities. (Photograph taken in Johannesburg, South Africa in April 2006 by
RIG/Pretoria auditor.)




Photo of USAID-funded counselor providing HIV testing on blood samples. (Photograph taken in Soweto,
South Africa in April 2006 by RIG/Pretoria auditor.)




                                                                                                  5
Need For Validating Reported Data
Summary: Both OMB guidelines and ADS 202.3.6 address the importance of monitoring
data quality. Some of USAID/South Africa’s reported data could not be validated and
data testing identified some problems. Prior to this audit, 16 of USAID’s recipients had
data quality assessments performed by a contractor that identified data quality problems
for the data maintained and reported by the recipients. The data problems that were
identified can be attributed to there being no (1) procedures to ensure the validation of
reported data from recipients and sub-recipients, and (2) advanced monitoring and
evaluation training for the Mission’s recipients. The effect of USAID/South Africa having
insufficient procedures to validate its Emergency Plan activity data puts the Mission at
risk of not knowing whether its reported data is accurate, over-reported or under-
reported. This risk is also perpetuated by not having a monitoring and evaluation
training plan that meets the needs of the Mission’s recipients.

The Office of Management and Budget’s Guidelines for Ensuring and Maximizing the
Quality, Objectivity, Utility, and Integrity of Information Disseminated by Federal
Agencies (January 3, 2002) states that agencies are directed to develop information
resources management procedures for reviewing and substantiating the quality
(including the objectivity, utility, and integrity) of information before it is disseminated. In
addition, according to ADS 202.3.6, “monitoring the quality and timeliness of outputs
produced by implementing partners is a major task of cognizant technical officers and
strategic objective teams. . . problems in output quality, provide an early warning that
results may not be achieved as planned. . . early action in response to problems is
essential in managing for results.”

Three of five recipients tested during the audit had some data problems with their own or
sub-recipient data. In some instances the audit team could not verify recipient or sub-
recipient data reported by provincial government hospitals and clinics that had reported
data to their USAID/South Africa recipients. According to the Mission and recipient
officials, in two of the nine provinces the provincial governments would not allow their
reported data to be validated. They stated that the provincial governments (1) believe
that the data belongs to the government and not the USAID recipient, and (2) expressed
concerns about protecting patient identities. (Because the provincial government data
issue is already being discussed at a USG level in country we are not making a
recommendation.) In addition, comparison of reported Emergency Plan data against
source documents (such as patient registers or patient consent forms) identified data
quality errors that could have been prevented or detected earlier with recipients
validating their own data, as well as data reported by their sub-recipients. Examples of
these errors included:

   •   A sub-recipient clinic could not produce documentary support for 88 patients that
       had been reported to the USAID recipient for a month of activity under “Positive
       Women Given Neviraphine.” The sub-recipient’s staff member produced a
       manual register with 85 names, and a second register with an additional 6
       names. However, for the second register the staff member was not sure if the
       listed persons had received Neviraphine during the month. The USAID recipient
       monitoring and evaluation specialist said that they had never validated the data
       from this clinic.




                                                                                              6
      •    A recipient had reported 3,334 individuals trained in the provision of general and
           related palliative care. However, a register that provided the number of
           individuals trained showed only 2,133 trained. The recipient’s files had not
           documented the basis of the numbers that had been compiled.

Prior to this audit, 16 of USAID/South Africa’s Emergency Plan recipients had data
quality assessments conducted by a contractor in December 2005 and February 2006.
The assessments identified problems with the quality of the data maintained and
reported by USAID implementing recipients for the Emergency Plan. Some of the
problems reported in the assessments included the following statements:

      •    Although it was stated that there were checks made at each level, many errors
           were found…there were so many transcription errors that the eventual vector of
           the errors could not be determined.
      •    The validity and the precision of the reported data against the stated indicators
           are unacceptable.
      •    There was no ‘true’ collation tool resulting in various errors such as not including
           numbers in manual aggregations.
      •    The official records were not kept for all the dates of various stages of the data
           management process.

The Mission’s data problems can be attributed to there being (1) insufficient procedures
to provide systematic evidence that recipients are monitoring the validity of their own
data and their sub-recipients, and (2) no advanced monitoring and evaluation training for
the Mission’s recipients. USAID/South Africa has a staff member whose duties in part
include monitoring the quality of data being provided by the Emergency Plan recipients.7
In this effort, reported data is compared against historical data and data aberrations are
identified. Resulting questions or concerns will result in contacting the recipient via
email or phone for clarification. This Mission staff member does not validate the data
being reported by the recipients. The staff member noted that it is the responsibility of
USAID’s recipients to validate their sub-recipients’ data. As discussed in the subsequent
section of this report, other strategic objective team members reported that they
validated recipient data during site visits, though no documentary evidence of data
validation was identified. The Mission acknowledged that its existing procedures for
validating data through independent data quality assessments of selected partners and
the internal validation controls in the data warehouse are by themselves, insufficient
since they do not provide systematic evidence that recipients are monitoring the validity
of the reported data.

Another cause is that although monitoring and evaluation training is provided for
USAID’s recipients, even more needs to be done to address the needs of USAID/South
Africa’s Emergency Plan recipients. Recipient’s noted that they had taken the
monitoring and evaluation training offered by the Mission. They expressed that this was
good training for new and smaller recipients who lacked monitoring and evaluation
experience. However, they noted that they required more advanced training. Mission
officials noted that some of their recipients have hired monitoring and evaluation
specialists but they acknowledged that a monitoring and evaluation training plan is
needed that recognizes the various skill levels among USAID/South Africa's recipients.

7
    Emergency Plan data is provided by USAID/South Africa’s recipients through a data warehouse.


                                                                                                   7
Not having procedures to validate its Emergency Plan activities data places the Mission
at risk of not knowing whether its reported data is accurate, over-reported or under-
reported. In addition, this risk is also perpetuated by not having a monitoring and
evaluation training plan that meets the needs of monitoring and evaluation for its
recipients. The overall magnitude of inaccurate data could not be determined by this
audit due to the limited amount of data tested; however, the results of our testing,
combined with the earlier data quality assessments indicates a need for additional action
to help reduce the likelihood of inaccurate data.

In conclusion, the actions undertaken by the Mission by (1) providing monitoring and
evaluation training for recipients, (2) having a staff member to monitor data quality, and
(3) conducting data quality assessments are commendable and positive steps for
improving recipients’ data being reported for the Emergency Plan. However, the Mission
should take additional measures to help strengthen the data reported under its
Emergency Plan activities. Accordingly, we are making the following recommendations:

   Recommendation No. 1: We recommend that USAID/South Africa develop
   Mission-specific procedures requiring that its recipients periodically test their own
   and their sub-recipient’s data to help establish the validity of the reported data.

   Recommendation No. 2: We recommend that USAID/South Africa develop a
   monitoring and evaluation training plan that meets the range of monitoring and
   evaluation skill level needs of its recipients.


Mission Officials Need to Better
Document Site Visits

Summary: USAID/South Africa’s staff needs to improve documentation of their site visits
to the Mission’s recipients. USAID’s Automated Directives System (ADS) 303, 202, the
Cognizant Technical Officer (CTO) Checklist, and USAID/South Africa Mission Order
402 address the Mission’s staff responsibilities for documenting their significant actions
with recipients. Nevertheless, many of the Mission’s staff responsible for overseeing the
monitoring of the Emergency Plan have not been documenting their efforts. This
occurred because staff (1) relied upon recipients’ meeting notes, (2) lacked the time to
prepare site visit reports, and (3) believed that site visit documentation was not required
by the strategic objectives team. Without documentation of what has occurred during
site visits, it is difficult to determine whether the site visits have accomplished the level of
monitoring required to oversee the implementation of the Emergency Plan activities.

According to USAID’s ADS 303.3.4.c.1, CTOs are responsible for monitoring and
evaluating a recipient and its performance during the award to facilitate the attainment of
program objectives. Required CTO action includes contact through site visits and liaison
with the recipient, and reviewing and analyzing performance and financial reports. The
CTO responsibilities are further defined in the CTO Checklist found in USAID’s Guide
Book for Managers and Cognizant Technical Officers on Acquisition and Assistance
(November 1998). Among the CTO responsibilities are:




                                                                                              8
   •   Maintaining reasonable contact with the contractor to become aware of and gain
       an understanding of its problems and work schedules.

   •   Documenting significant actions, conversations, etc., as they occur.

   •   Establishing and maintaining a separate file for documents and correspondence
       pertaining to the contract.

According to ADS 202.3.4.6, Strategic Objectives (SO) teams “must ensure that they
have adequate official documentation on agreements used to implement USAID-funded
activities, resources expended, issues identified, and corrective actions taken.” In
addition, USAID/South Africa has developed mission-specific procedures requiring that
site visits be documented and maintained. These procedures are documented in
Mission Order No. 402 dated November 5, 1997. Section II of the Mission Order states
that the purpose of the Order is to (a) “Ensure that substantive information relating to
field trips, important meetings and significant issues and decisions is recorded and
shared appropriately,” and (b) “Document site visits and other significant events to
provide a useable record and evidence for implementation purposes.”

Four of the six SO3 (Health Equity Team) staff who had monitoring responsibilities
(CTO’s and activity managers) did not maintain files that documented site visits. In spite
of little documentary evidence of site visits, all of the Mission’s staff and Emergency Plan
recipients reported that the Mission had actively monitored the activities of the recipients.
This monitoring came in many different forms—site visits, face-to-face meetings, email,
telephone communications, and status reports. As stated in the prior section of this
report, Mission staff said that during site visits they validated recipient data that had
been reported to USAID by checking the data against source documents. The validation
of data is an important monitoring activity; however, there was no documentary evidence
of data validation being carried out by Mission staff.

There were several reasons cited by SO3 staff on why they did not document their site
visits. These included (1) lacking time to write site visit reports, (2) relying upon
recipients’ meeting notes to serve as the basis of reporting discussions, and (3) believing
that site visit documentation was not required within SO3 team.

Because many site visits had not been documented and maintained in files, it was
difficult for the Mission to account for its site visit results. Although some documentation
was kept, it was generally incomplete. Without such documentation, it was difficult to
determine whether the level of site visit activities was appropriate to accomplish the level
of monitoring necessary to oversee the implementation of the Emergency Plan activities.

The documentation and maintenance of site visits records are an important internal
control for ensuring that all of the Mission’s recipients are adequately monitored and that
funds are accounted for. A practice of Mission staff conducting site visits with recipients,
without documenting their monitoring activities is of limited value and does not meet the
intent of the ADS and Mission Order 402. Rather, providing documentation of site visits
in the Mission’s files helps to provide information that serves as part of the basis for
evaluating the effectiveness of a recipient’s programs. Having site visit documentation is
also important for historical purposes, especially when staff turnover results in new staff
being assigned monitoring responsibilities. In order to strengthen this management



                                                                                           9
control and to provide the Mission with the full benefit of the site visits we are making the
following recommendation:

   Recommendation 3:          We recommend that USAID/South Africa develop
   procedures to document and maintain evidence of site visits, including its testing
   of recipient data to help establish the validity of the reported data.




                                                                                          10
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/South Africa agreed with all three
recommendations.8

For Recommendation No. 1 (Recommendation No. 2 in the management comments),
the Mission has issued a new standard operating procedure from its Office of Acquisition
and Assistance that requires inclusion of a clause in each agreement regarding reporting
requirements for PEPFAR recipients. The clause will require that recipients document
that they have conducted periodic tests of their own data as well as the data of their sub-
recipients. As a result, final action has been taken on this recommendation.

In agreeing with Recommendation No. 2 (Recommendation No. 3 in the management
comments), the Mission has submitted documentation that it has formalized its ongoing
monitoring and evaluation training plan for its PEPFAR recipients and sub-recipients.
Therefore, final action has been taken on this recommendation.

For Recommendation No. 3 (Recommendation No. 1 in the management comments),
the Mission submitted a draft revised mission order on its procedures for documenting
the results of site visits, including a standard site visit report and checklist. Therefore, a
management decision has been reached for this recommendation. Final action will be
achieved when the mission order is formally incorporated into the Mission’s policies and
procedures.

The Mission’s comments are included in their entirety (without attachments) in Appendix
II.




8
    Please note that the recommendation numbering has been changed from those of the draft report.


                                                                                                     11
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork was conducted from
March 9, 2006, through May 10, 2006, in Durban, Johannesburg, and Pretoria, South
Africa.

This audit was conducted as part of a series of the worldwide audits conducted by the
Office of Inspector General. The objective of this audit was to determine whether
USAID/South Africa’s Emergency Plan prevention and care activities were progressing
as expected towards the planned outputs in its grants, cooperative agreements, and
contracts.

In conducting this audit, we assessed the effectiveness of USAID’s internal control with
respect to consolidating reporting data for USAID’s portion of the U.S. Government
annual progress report of its activities through September 30, 2005. We identified
internal control such as USAID’s process for monitoring its recipients’ progress and
reporting; and USAID recipients’ processes for gathering multi-site reported data and
their reporting of the data.

For the period audited, 35 recipients were engaged in prevention and care activities. We
judgmentally selected five recipients—those with the largest total award amounts in
Fiscal Year (FY) 2005. Those five recipients represented 28 percent of the total funding
for prevention and care activities. A major recipient was excluded from this sample
because it had been the subject of another major RIG/Pretoria audit this past year. The
exclusion of this recipient and their FY 2005 funding, from the population from which the
sample was based, resulted in the audit addressing 63 percent of the remaining funds
for prevention and care activities. The USAID/South Africa activities reviewed during
this audit were FY 2005 Country Operational Plan activities with funding being from FY
2004 and FY 2005.

Methodology
To answer the audit objective, we met with USAID/South Africa Mission staff in the
Health strategic objective team, and reviewed prior Emergency Plan audit reports to gain
an understanding of the subject matter. We performed an in-depth review of
USAID/South Africa’s FY 2005 Country Operational Plan. Of the 35 recipients engaged
in prevention and care activities for FY 2005, we selected 5 for review. We then
judgmentally selected two to three key outputs for each selected recipient and compared
those output percentages against the audit threshold criteria to determine if planned
outputs were achieved.

The audit threshold criteria were as follows:

   1) If at least 90 percent of the selected key outputs have been achieved, the answer
      to the audit objective would be positive.



                                                                                      12
                                                                               APPENDIX I



   2) If at least 80 percent but less than 90 percent of the selected key outputs have
      been achieved, the answer to the audit objective would be qualified.

   3) If less than 80 percent of the selected key outputs have been achieved, the
      answer to the audit objective would be negative.

We interviewed Mission and recipient officials responsible for Emergency Plan
monitoring and implementation. We reviewed their pertinent documents which included
but were not limited to, trip reports, and semi-annual and annual reports which helped
determine the levels of monitoring being carried out and also to determine if progress
towards outputs had been achieved. In addition, site visits were carried out to observe
operations at various recipient and sub-recipient sites. In part, these visits included
testing data found in progress reports/annual reports and observing program operations.
We visited the five recipients in our sample (which included visits to three recipients’
clinics) and seven clinics/hospitals operated by sub-recipients. We judgmentally
selected facilities in an effort to maximize our coverage based on the number of
individuals being served. Testing output data consisted of comparing the reported
information to supporting documentation such as log books, patient consent forms, and
other documentation. Depending upon the availability of source documents and the
amount of data reported, we judgmentally selected either (1) a specific month for review
or (2) the annual reporting period for a specific output. In selecting results for review, we
judgmentally selected important results that were most closely related to the Emergency
Plan goals.




                                                                                          13
                                                                              APPENDIX II



MANAGEMENT COMMENTS

                                                    UNITED STATES GOVERNMENT
                                                       ACTION M E M O R A N D U M
DATE             :             July 17, 2006

TO               :             Matt Rathgeber, Acting Regional Inspector General/Pretoria

FROM             :             Carleene Dei, Mission Director /s/

                               Management comments – Audit of USAID/South Africa’s
                               progress in implementing the President’s Emergency Plan for
SUBJECT          :
                               Aids Relief (PEPFAR). Report number 4-674-06-xxx-P



The Mission would like to thank the Regional Inspector General’s Office for their work
on this audit and for their recognition of the Mission’s achievements in its
implementation of the President’s Emergency Plan for AIDS Relief (PEPFAR). While
the report acknowledges the progress made meeting the output goals of the PEPFAR-
funded projects, the Mission appreciates the recommendations designed to strengthen the
monitoring and evaluation of this complex and unique multi-agency program.

The Mission has reviewed the subject audit report. The following is our management
response and comments:

Recommendation 1: We recommend that USAID/South Africa develop procedures
to document and maintain evidence of site visits, including its testing of recipient data
to help establish the validity of the reported data.

Management Response to Recommendation #1:
USAID/South Africa concurs with this recommendation. A Mission order on procedures
for documenting findings from site visits has been issued by the Mission to ensure that
site visits are documented and maintained. The mission order includes standard
guidelines and a checklist that all activity managers and CTOs will use to document the
findings of their site visits. A copy of the mission order and the proposed standard site
sheet check list is provided in Annex 1.

Based on the action taken above to address the recommendation, the Mission requests
that this finding be closed upon issuance of the final report.


                                                                                            14
                                                                              APPENDIX II



Recommendation No. 2: We recommend that USAID/South Africa develop Mission-
specific procedures requiring that its recipients periodically test their own and their
sub-recipient’s data to help establish the validity of the reported data.

Management Response to Recommendation #2:
USAID/South Africa concurs with this recommendation. The Mission will include
language in the reporting requirements of all future contract, grant and cooperative
agreement amendments that requires PEPFAR recipients to document that they have
conducted periodic tests of their data and that of their sub-recipients. Partners will also
be required to provide the Mission with evidence that they have developed appropriate
monitoring and evaluation plans that includes the M&E needs of any sub-partners.
Building on our recent experience in conducting independent data quality assessments
(DQAs), the Mission recently signed a multi-year agreement with a local organization to
conduct addition DQAs on selected PEPFAR implementing partners for the remainder of
the five-year PEPFAR initiative. One of the tasks of this independent review will be to
assess and document the quality of our partners’ M&E systems including their
monitoring of sub-partner M&E operations. The Mission will also expand its M&E
internship program to serve more PEPFAR partners and will target those partners that
would most benefit from and are receptive to receiving an M&E intern.

Attached (Annex 2) is the standard operating procedure from USAID/South Africa’s
Office of Acquisition and Assistance that lays out the guidance for inclusion of a clause
to be included in each agreement. This clause will be included in each new agreement
and in existing agreements with incremental funding modifications.

Based on the action taken above to address the recommendation, the Mission requests
that this finding be closed upon issuance of the final report.


Recommendation No. 3: We recommend that USAID/South Africa develop a monitoring
and evaluation training plan that meets the range of monitoring and evaluation skill level
needs of its recipients

Management Response to Recommendation #3:
USAID/South Africa concurs with this recommendation. The Mission has now
formalized its ongoing monitoring and evaluation (M&E) training plan for PEPFAR
implementing partners and sub-partners to reflect the diverse M&E skill levels of
PEPFAR partners. The plan takes into account the range of M&E needs of organizations
ranging from basic introduction to M&E techniques to more advanced M&E plans. The
Mission has attached the M&E training plan for FY 2006 in Annex 3. The M&E work
plan will be updated annually based on the needs of partners, changes in PEPFAR
guidance on indicators, the recommendations of the interagency PEPFAR task force, and
the results of ongoing data quality audits.

Based on the action taken above to address the recommendation, the mission requests that
this finding be closed upon issuance of the final report.


                                                                                          15
                                                                              APPENDIX II



In conclusion, the Mission would like to furnish information concerning steps already
taken by the USG PEPFAR team to implement a robust monitoring and evaluation
component within PEPFAR.

USAID/South Africa, and the entire USG/SA PEPFAR team, has taken seriously the
need for a robust M&E system. Since the outset of the program, we have implemented a
number of concrete steps to ensure the validity of the data reported by all USG PEPFAR
partners. Despite the sheer size of the PEPFAR program in South Africa, (with more
than 100 prime partners, more than 200 sub-partners and close to 350 treatment sites), the
USG PEPFAR team has taken significant steps to ensure that partners regularly report
quality data. These steps are coordinated by an interagency team of strategic information
(SI) professionals from USAID, the Embassy and CDC. The steps include:

           •   Regular M&E capacity building workshops for all PEPFAR partners;
           •   Individualized M&E technical assistance to selected PEPFAR partners;
           •   Placement of graduate level M&E interns within PEPFAR partners;
           •   Independent (ISSO certified) Data Quality Assessments of selected
               PEPFAR partners; and
           •    Single data warehouse into which all PEPFAR partners report on their
               performance, thereby ensuring an audit trail on all data reported by the
               Mission.


In addition, M&E is a regular feature of all PEPFAR partner meetings and consultations,
and a South Africa-specific strategic information manual has been developed and
disseminated to all implementing partners.

       Building Partner M&E capacity

PEPFAR partners have several opportunities each year to attend one of the week long
M&E capacity building workshops that are designed to strengthen both individual and
institutional M&E capacity so that partners can monitor and evaluate their programs. The
workshops include an introduction to basic M&E principles, indicator development, data
quality and data use. The workshops are interactive and aimed at encouraging
organizations towards using M&E as an essential management tool. One of the
deliverables from these workshops is for the participants to create or update M&E work
plans for their organizations. These work plans are the first step in achieving improved
organizational M&E systems.

       Individualized technical assistance

In addition to routine site visits by activity managers to review partner performance, the
interagency M&E team works closely with activity managers to identify and design
individualized M&E assistance activities for those organizations that need specialized
support. Given the large number of PEPFAR partners in South Africa it is not practical


                                                                                          16
                                                                             APPENDIX II


for the USG M&E team to provide individualized support to all organizations; instead
attention is given to those identified as requiring assistance in this area.

       M&E Internship program

As a complement to the more short term technical assistance provided through the M&E
workshops and site visits, the USG PEPFAR team has initiated a M&E internship
program with the University of Pretoria (UP) whereby recent graduates from the M&E
track of the UP Masters in Public Health program are matched with PEPFAR partners in
need of additional M&E support. This activity is building a cadre of skilled M&E
professionals and provides a source of additional M&E assistance to partners and sub-
partner organizations. The USG PEPFAR team plans to expand this program in FY
2007.

       Data Quality Assessments

The USG PEPFAR team recognizes the importance of being able to assess the validity
and quality of partner data and has embarked on an independent data quality assessment
(DQA) program. The objective of the DQA program is to ascertain whether or not the
data reported by PEPFAR partners meets minimum standards of data quality. In each
DQA, partner data is analyzed for its validity, reliability, integrity, precision and
timeliness in line with ADS 303. In addition, each partner’s data management system is
assessed to determine the ability of the organization to keep an audit trail that
demonstrates the presence of valid, verifiable and relevant evidence. In 2005, the first
year of this program, 24 PEPFAR partners were audited including 16 USAID partners.
And a new, multi-year agreement has just been awarded to expand this program.

       Centralized data warehouse

In order to manage the large amount of data being reported by the PEPFAR partners, the
USG PEPFAR team has contracted with a well-regarded local management services
organization to build and maintain a consolidated data warehouse to assist the USG and
our partners with reporting and monitoring needs of PEPFAR by facilitating the
collection, reporting and analysis of data on all PEPFAR indicators. The Data
Warehouse is a functioning, password-protected, web-based reporting system through
which all PEPFAR partners submit both narrative and quantitative information on
progress towards their expected results to the USG on a quarterly, semi-annual and
annual basis. To ensure that quality data is produced, the data warehouse system requires
that the partner and the activity manager independently review and approve the data
before it is finally accepted by the system, and the system has a build-in audit capability
that tracks all changes made to the data, when the changes were made and by whom.




                                                                                        17
                                                                                               APPENDIX III



Reported Outputs Achieved as
of September 30, 20059
Johns Hopkins University-Center for Communications Programs


    Output Description                                  Planned             Achieved            Percentage
                                                        FY 2005             FY 2005              Achieved
                                                        Output               Output


    Number of clients who received HIV test
    results and post-test counseling                     14,400                7,788                54%

    Total Number of orphans and
    vulnerable children served                            4,000               10,768                269%

This recipient reported that in FY 2005 it had difficulty getting counseling and testing numbers
from tertiary institutions (vocational and technical institutions, and universities) where health care
professionals work. The difficulties are due to fears around information about HIV prevalence
getting to the media and tarnishing the institutions’ reputation. A USAID/South Africa official
noted that counseling and testing takes place at tertiary institutions and that it has been difficult in
gathering the data at these institutions because management refuses to release the data. This
has led to severe underreporting of these activities.

The audit team visited this recipient’s administrative offices. No other site visits were made.


University of the Witwatersrand-Reproductive Health and HIV Research Unit


    Output Description                                  Planned             Achieved            Percentage
                                                        FY 2005             FY 2005              Achieved
                                                        Output               Output


    Number of clients who received HIV test
    results and post-test counseling                      8,000               8,031                 100%

    Total Number of individuals provided
    with general HIV-related palliative care              3,875               4,716                 122%

The audit team visited this recipient’s administrative offices, as well as one of the recipient’s
clinics and a sub-recipient’s hospital.




9
    The Fiscal Year (FY) 2005 output data that is reported in Appendix III has not been fully audited.




                                                                                                           18
                                                                                        APPENDIX III




University of the Witwatersrand-Perinatal HIV Research Unit


 Output Description                                Planned            Achieved           Percentage
                                                   FY 2005            FY 2005             Achieved
                                                   Output              Output


 Number of pregnant women provided
 with a complete course of antiretroviral
 prophylaxis in a prevention of mother to
 child transmission setting                         7,750               8,541               110%

 Number of clients who received HIV test
 results and post-test counseling                   1,440               2,431               169%

 Total number of individuals provided
 with general HIV-related palliative care           4,000               4,097               102%

The audit team visited this recipient’s administrative offices, as well as the recipient’s clinic, three
sub-recipients’ clinics, and one sub-recipient’s men’s project site.


Right to Care


 Output Description                                Planned            Achieved           Percentage
                                                   FY 2005            FY 2005             Achieved
                                                   Output              Output


 Number of clients who received HIV test            5,000              32,049               641%
 results and post-test counseling

 Total number of individuals provided               7,500              18,596               248%
 with general HIV-related palliative care


The audit team visited this recipient’s administrative offices, as well as one clinic operated by the
recipient and one sub-recipient’s hospital clinic.




                                                                                                      19
                                                                                       APPENDIX III


Elizabeth Glaser Pediatric AIDS Foundation


 Output Description                               Planned           Achieved           Percentage
                                                  FY 2005           FY 2005             Achieved
                                                  Output             Output


 Number of pregnant women who
 received their HIV test results and were
 post-test counseled at a U.S.
 Government-supported prevention of
 mother to child transmission setting              1,062              10,116               953%

 Number of pregnant women provided
 with a complete course of antiretroviral
 prophylaxis in a prevention of mother to
 child transmission setting                           81               1,959              2419%


The audit team visited this recipient’s administrative offices, as well as a private hospital run by a
sub-recipient.




                                                                                                    20
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
